<html>
<title> - AN OVERVIEW OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION BUDGET FOR FISCAL YEAR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                AN OVERVIEW OF THE NATIONAL AERONAUTICS
                        AND SPACE ADMINISTRATION
                      BUDGET FOR FISCAL YEAR 2014
=======================================================================



                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 24, 2013

                               __________

                           Serial No. 113-23

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, Texas                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                MARC VEASEY, Texas
BILL POSEY, Florida                  JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            FREDERICA S. WILSON, Florida
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
CHRIS STEWART, Utah
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             April 24, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    19

Statement by Representative Donna Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    21

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    22
    Written Statement............................................    23

                               Witnesses:

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    24
    Written Statement............................................    26

Discussion.......................................................    36

             Appendix I: Answers to Post-Hearing Questions

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration (NASA)....................    56

            Appendix II: Additional Material for the Record

Submitted statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   126

Submitted letter by the Planetary Society........................   127


              AN OVERVIEW OF THE NATIONAL AERONAUTICS AND

            SPACE ADMINISTRATION BUDGET FOR FISCAL YEAR 2014

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                  House of Representatives,
                                      Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC] [TIFF OMITTED] 80562.001

[GRAPHIC] [TIFF OMITTED] 80562.002

[GRAPHIC] [TIFF OMITTED] 80562.003

[GRAPHIC] [TIFF OMITTED] 80562.004

[GRAPHIC] [TIFF OMITTED] 80562.005

[GRAPHIC] [TIFF OMITTED] 80562.006

[GRAPHIC] [TIFF OMITTED] 80562.007

[GRAPHIC] [TIFF OMITTED] 80562.008

[GRAPHIC] [TIFF OMITTED] 80562.009

[GRAPHIC] [TIFF OMITTED] 80562.010

[GRAPHIC] [TIFF OMITTED] 80562.011

[GRAPHIC] [TIFF OMITTED] 80562.012

[GRAPHIC] [TIFF OMITTED] 80562.013

[GRAPHIC] [TIFF OMITTED] 80562.014

[GRAPHIC] [TIFF OMITTED] 80562.015

    Chairman Palazzo. Well, good afternoon. Welcome to today's 
hearing titled An Overview of the National Aeronautics and 
Space Administration Budget for Fiscal Year 2014.
    In front of you are packets containing the written 
testimony, biographies and required Truth in Testimony 
disclosures for today's witness. I recognize myself for five 
minutes for an opening statement.
    Good afternoon. I would like to welcome everyone to our 
hearing today, and I especially want to thank our witness, NASA 
Administrator Charlie Bolden, for joining us. I know many 
people put in a lot of effort preparing for these hearings, and 
we appreciate you taking time from your busy schedule to appear 
before the Subcommittee.
    The purpose of today's hearing is to review the 
Administration's Fiscal Year 2014 budget request for the 
National Aeronautics and Space Administration and to examine 
its priorities and challenges.
    Before we review the details of the NASA request, I feel it 
is necessary to express my disappointment that the 
Administration has been unable to fulfill its responsibilities 
for a timely budget as required under the Budget and Accounting 
Act. In the future, I hope the Administration will be on time.
    This year NASA is requesting $17.7 billion, a decrease of 
$55 million from Fiscal Year 2012 and $733 million less than 
Fiscal Year 2011. In a time of budgetary restraints such as the 
one our Nation is facing, we must ensure that every agency is 
doing its part, and I believe the top line request for NASA is 
fair in this regard.
    There are several areas of the request that I believe 
require serious deliberation and thoughtful debate. Within the 
Human Operations and Exploration Mission Directorate, I am most 
concerned with the requests for the Commercial Crew Program, 
the Space Launch System and the Orion crew capsule. Certainly 
the successful launches of both SpaceX and Orbital Sciences are 
significant milestones, and they should be applauded for those 
achievements. However, I continue to be concerned about the 
strategy NASA is employing to fund crew transportation systems.
    We must recognize the times in which we are operating. If 
funding multiple companies to develop these systems is no 
longer feasible, we must reevaluate our strategy. Our first 
priority must be getting American astronauts launching on 
American rockets from American soil as soon as safely possible. 
I am skeptical about continuing to develop a market as broad 
and as deep as NASA suggests because I think it could delay 
that goal. This is a conversation I anticipate revisiting as 
the Committee prepares for the NASA reauthorization later this 
year.
    Additionally, I am concerned about the requests for the 
Space Launch System and the Orion crew capsule. While Congress 
continues to insist that these two programs be priorities, NASA 
has once again offered a budget that does not demonstrate the 
sustained commitment to their development. I remain committed 
to ensuring our Nation has a robust exploration program, and I 
am curious what milestones or important testing NASA believes 
can be pushed out in the schedule to accommodate the lower 
request.
    I am also troubled by NASA's requested reductions in the 
Science, Aeronautics, and Human Exploration and Operations 
Mission Directorates, while asking for $105 million for an 
Asteroid Retrieval Mission that was announced seemingly out of 
the blue. This request was not accompanied by a budget profile, 
technical plan or long-term strategy. Yet NASA has asked 
Congress to commit to funding the first steps. I look forward 
to hearing more about this mission and how NASA intends to 
cover the $2.6 billion that the Keck Institute for Space 
Studies estimated it would cost.
    In the Science Mission Directorate, the Administration has 
requested authority to transfer several climate sensors from 
the troubled Joint Polar Satellite System and the Deep Space 
Climate Observatory out of the NOAA budget and assign them to 
the Earth Science program budget. The budget request also 
transfers Landsat Data Continuity Mission follow-on activities 
from the U.S. Geological Survey to NASA and the development 
infrastructure for Radioisotope Power Systems from the 
Department of Energy to NASA. So I am worried that NASA is 
footing the bill for other agency requirements, all while being 
asked to take an overall budget cut.
    Finally, I am concerned by the growth of the Space 
Technology program. The request for the Space Technology 
program this year is a 62 percent increase over the 
appropriation it received in Fiscal Year 2012. This is a 
significant amount of growth in only two years. Although NASA 
has announced that it will organize Space Technology as a 
mission directorate, it has not requested authority to do so in 
the upcoming authorization bill and it is not entirely clear 
how the projects in Space Technology differ from those in the 
other mission directorates.
    Mr. Administrator, like you, I am committed to ensuring 
that our Nation has a robust space program that will continue 
to lead the world for generations. I am concerned, however, 
that NASA has neglected Congressional funding priorities and 
been distracted by new and questionable missions that detract 
from our ultimate deep space exploration goals. These 
distractions also take up precious lines in the budget at a 
time when NASA can least afford it.
    [The prepared statement of Mr. Palazzo follows:]

  Prepared Statement of Subcommittee on Space Chairman Steven Palazzo

    Good afternoon. I would like to welcome everyone to our hearing 
today and I especially want to thank our witness, NASA Administrator 
Charlie Bolden, for joining us. I know many people put in a lot of 
effort preparing for these hearings, and we appreciate you taking time 
from your busy schedule to appear before the Subcommittee.
    The purpose of today's hearing is to review the Administration's 
fiscal year 2014 budget request for the National Aeronautics and Space 
Administration and to examine its priorities and challenges.
    Before we review the details of the NASA request, I feel it is 
necessary to express my disappointment that the Administration has been 
unable to fulfill its responsibilities for a timely budget as required 
under the Budget and Accounting Act. In the future, I hope the 
Administration will be on time.This year NASA is requesting $17.7 
billion, a decrease of $55 million from fiscal year 2012 and $733 
million less than fiscal year 2011. In a time of budgetary restraints 
such as the one our nation is facing, we must ensure that every agency 
is doing its part, and I believe the topline request for NASA is fair 
in this regard.
    There are several areas of the request that I believe require 
serious deliberation and thoughtful debate. Within the Human Operations 
and Exploration Mission Directorate I am most concerned with the 
requests for the Commercial Crew Program, the Space Launch System and 
the Orion crew capsule. Certainly the successful launches of both 
SpaceX and Orbital Sciences are significant milestones and they should 
be applauded for those achievements, however, I continue to be 
concerned about the strategy NASA is employing to fund crew 
transportation systems.
    We must recognize the times in which we are operating, if funding 
multiple companies to develop these systems is no longer feasible, we 
must reevaluate our strategy. Our first priority must be getting 
American astronauts launching on American rockets from American soil as 
soon as is safely possible. I am skeptical about continuing to develop 
a market as broad and as deep as NASA suggests because I think it could 
delay that goal. This is a conversation I anticipate revisiting as the 
Committee prepares for the NASA reauthorization later this year.
    Additionally, I am concerned about the requests for the Space 
Launch System and the Orion crew capsule. While Congress continues to 
insist that these two programs be priorities, NASA has once again 
offered a budget that does not demonstrate a sustained commitment to 
their development. I remain committed to ensuring our nation has a 
robust exploration program and I am curious what milestones or 
important testing NASA believes can be pushed out in the schedule to 
accommodate the lower request.
    I am also troubled by NASA's requested reductions in the Science, 
Aeronautics, and Human Exploration and Operations Mission Directorates, 
while asking for $105 million for an asteroid retrieval mission that 
was announced seemingly out of the blue. This request was not 
accompanied by a budget profile, technical plan, or long-term strategy. 
Yet NASA has asked Congress to commit to funding the first steps. I 
look forward to hearing more about this mission and how NASA intends to 
cover the $2.6 billion that the Keck Institute for Space Studies 
estimated it would cost.
    In the Science Mission Directorate, the Administration has 
requested authority to transfer several climate sensors from the 
troubled Joint Polar Satellite System (JPSS) and the Deep Space Climate 
Observatory (DSCOVR) out of the NOAA budget and assign them to the 
Earth Science program budget. The budget request also transfers Landsat 
Data Continuity Mission follow-on activities from the U.S. Geological 
Survey (USGS) to NASA, and the development infrastructure for 
Radioisotope Power Systems from the Department of Energy (DOE) to NASA. 
I am worried that NASA is footing the bill for other agency 
requirements; all while being asked to take an overall budget cut.
    Finally, I am concerned by the growth of the Space Technology 
program. The request for the Space Technology program this year is a 
62% increase over the appropriation it received in fiscal year 2012. 
This is a significant amount of growth in only two years. Although NASA 
has announced that it will organize Space Technology as a mission 
directorate, it has not requested authority to do so in the upcoming 
authorization bill and it is not entirely clear how the projects in 
Space Technology differ from those in the other mission directorates.
    Mr. Administrator, like you, I am committed to ensuring that our 
nation has a robust space program that will continue to lead the world 
for generations. I am concerned however that NASA has neglected 
Congressional funding priorities and been distracted by new and 
questionable missions that detract from our ultimate deep space 
exploration goals. These distractions also take up precious lines in 
the budget at a time when NASA can least afford it.

    Chairman Palazzo. I now recognize the Ranking Member, the 
gentlelady from Maryland, Ms. Edwards, for an opening 
statement.
    Ms. Edwards. Thank you, Mr. Chairman, and good afternoon 
and welcome to Administrator Bolden. Before I begin, I want to 
offer my congratulations to NASA and to Orbital on the test 
flight of the Antares launcher on Sunday. The successful test 
flight speaks well of the teamwork among Orbital, NASA and the 
Wallops Flight Facility and the FAA including the Mid-Atlantic 
Regional Spaceport in the Virginia Commercial Space Flight 
Authority. So congratulations.
    Now today we are meeting to review the $17.7 billion 
request for NASA's Fiscal Year 2014 budget, and I know, General 
Bolden, that it has not been easy getting to this point. With 
sequestration and the late resolution of the fiscal 2013 
budget, we in Congress have not provided you with the optimal 
conditions under which to plan and implement NASA's inspiring 
portfolio of missions, but here we are.
    Now I have said before and I will say it again that our 
investments in research and development, including space, are 
investments in innovation, jobs and future economic growth. If 
we skimp on the input side of the equation, we can't expect 
positive changes in our Nation's capacity for innovation and 
growth. That is why we need to take a careful look at how the 
resources requested match the program content included in the 
Fiscal Year 2014 budget request.
    At the Full Committee hearing just last week on the Fiscal 
Year 2014 budget request for science agencies, the President's 
science advisor, Dr. Holdren, testified, and I quote, ``NASA 
has long had the problem of 20 pounds of mission in a 10-pound 
budget and they continue to.'' I share that concern. This 
proposal includes requests for NASA's key priorities, the James 
Webb Space Telescope, the International Space Station and the 
Space Launch System and Orion Crew Vehicle, along with its 
science and aeronautics programs and its infrastructure 
support.
    I worry that for all the work that NASA is tasked with 
doing to move forward toward fulfilling the 2010 NASA 
Reauthorization Act that the agency is also cherry-picking 
aspects of that strategic plan that it finds favorable while 
undercutting other priorities in the law. For example, the 2014 
budget request includes $105 million as a down payment to fund 
initial concept work on a mission that would demonstrate solar 
electric propulsion technology that is needed to capture a 
small asteroid, move it into trans-lunar region and then 
potentially use that asteroid as a target destination for the 
first crewed flight of the SLS and Orion system. In addition, 
the request includes $820 million a year over the next several 
years to fund the development of Commercial Crew capability for 
transporting astronauts to and from the ISS, a significant 
increase from the $400 million and $500 million range that 
Congress has been willing to authorize and appropriate for 
those activities in the last three fiscal years. My fear is 
that I have already gotten to the 20 pounds of program content 
that Dr. Holdren was talking about in NASA's $17.7 billion 
request. And that doesn't include the unfunded new 
responsibilities for developing climate sensors that NASA's 
Earth Science program has inherited from NOAA, the $50 million 
increase required for full reimbursement now to the Department 
of Energy for resuming the domestic production of material that 
is needed to power deep space missions, or the 29 percent 
increase over Fiscal Year 2012 actual spending levels that is 
being sought for NASA's Space Technology program.
    To NASA's credit, the agency has been making progress in 
managing schedule and cost on its activities. The Government 
Accountability Office just recently issued a report that stated 
that NASA had success in the last two years in launching 
missions on cost or on schedule. I commend the agency and the 
contractor workforce on this progress, and yet the GAO also 
says that sustaining the changes that have led to these 
successes will be challenging within a period of flat or 
decreasing budgets and with the ongoing work on several large-
scale and complex projects. Should any of the JWST, ISS or SLS/
Orion programs experience a hiccup, the financial impact could 
have, and this is quoting GAO, ``cascading effects on the rest 
of the portfolio.'' Indeed, GAO's word of caution gives me 
pause since I don't see a lot of flexibility within the 2014 
request for dealing with that situation. I hope today's 
discussion can clarify the rationale for the proposed asteroid 
and capture retrieval initiative proposed in the 2014 budget 
and particularly how it contributes to detecting and 
characterizing 90 percent of near-Earth asteroids 140 meters in 
diameter or less--we have heard testimony in this Committee 
about that--as set in policy and successive authorization acts.
    In these tight budgetary times, we need to be sure the 
proposed approach will be the most efficient means of achieving 
those objectives. So I look forward, Administrator Bolden, to 
what I hope will be a beginning of an active dialogue on both 
the policy and resources required to support NASA and in 
effectively implementing its challenging and inspiring 
portfolio. And I thank you, Mr. Chairman, and yield, well, not 
the balance of my time, but I do yield.
    [The prepared statement of Ms. Edwards follows:]

      Prepared Statement of Ranking Minority Member Donna Edwards

    Good afternoon and welcome, General Bolden. Before I start, I'd 
like to offer my congratulations to NASA and Orbital on the test flight 
of the Antares launcher on Sunday. The successful test flight speaks 
well of the teamwork among Orbital, NASA, the Wallops Flight Facility, 
the Federal Aviation Administration (FAA), the Mid-Atlantic Regional 
Spaceport, and the Virginia Commercial Space Flight Authority.
    Today, we're meeting to review the $17.7 billion request for NASA's 
Fiscal Year 2014 budget.
    I know, General Bolden, that it has not been easy getting to this 
point. With sequestration and the late resolution of the Fiscal Year 
2013 budget, we in Congress have not provided you with the optimal 
conditions under which to plan and implement NASA's inspiring portfolio 
of missions.
    I have said before and will say again that our investments in 
research and development, including space, are investments in 
innovation, jobs, and future economic growth. If we skimp on the inputs 
side of the equation, we can't expect positive changes to our nation's 
capacity for innovation and growth.
    That is why we need to take a careful look at how the resources 
requested match the program content included in the FY 2014 budget 
request.
    At the Full Committee hearing last week on the Fiscal Year 2014 
budget request for Science Agencies, the President's Science Adviser, 
Dr. Holdren, testified that "NASA has long had the problem of 20 lbs. 
of missions in a 10 lb. budget, and they continue to." I share that 
concern.This proposal includes requests for NASA's key priorities--the 
James Webb Space Telescope, the International Space Station (ISS), and 
the Space Launch System (SLS) and Orion crew vehicle--along with its 
Science and Aeronautics programs, and its infrastructure support.
    I worry that for all the work NASA is doing to move towards 
fulfilling the 2010 NASA Authorization Act, that the Agency is also 
cherry picking aspects of that strategic plan that it finds favorable 
while undercutting other priority areas in the law.
    For instance, the FY 2014 budget request includes a $105 million 
down payment to fund initial concept work on a mission that would 
demonstrate solar-electric propulsion technology that is needed to 
capture a small asteroid, move it into a trans-lunar region, and then 
potentially use that asteroid as a target destination for the first 
crewed flight of the SLS and Orion system.
    In addition, the request includes $820 million a year over the next 
several years to fund the development of Commercial Crew capability for 
transporting astronauts to and from the ISS, a significant increase 
from the $400 and $500 million range that Congress has been willing to 
authorize and appropriate for those activities in the last three fiscal 
years.
    I fear I've already gotten to the 20 lbs. of program content that 
Dr. Holdren was talking about in NASA's $17.7 billion request.
    And that doesn't include the unfunded new responsibilities for 
developing climate sensors that NASA's Earth Science program has 
inherited from NOAA, the $50 million increase required for full 
reimbursement to the Department of Energy for resuming the domestic 
production of material that is needed to power deep space missions, or 
the 29 percent increase over FY 2012 actual spending levels being 
sought for NASA's Space Technology Program.
    To NASA's credit, the agency has been making progress in managing 
schedule and cost on its activities. The Government Accountability 
Office (GAO) just recently issued a report that stated: "NASA has had 
success in the last two years in launching missions on cost or on 
schedule." I commend the NASA and contractor workforce on this 
progress.
    Yet, the GAO also says that sustaining the changes that have led to 
these successes will be challenging within a period of flat or 
decreasing budgets and with the ongoing work on several large-scale and 
complex projects.
    Should any of the JWST, ISS, or the SLS/Orion programs experience a 
hiccup, the financial impact could have ``cascading effects on the rest 
of the portfolio,'' as GAO puts it.
    GAO's words of caution give me pause since I don't see a lot of 
flexibility within the FY2014 request for dealing with that situation.
    I hope that today's discussion can clarify the rationale for the 
proposed asteroid and capture retrieval initiative proposed in the FY 
2014 budget, particularly how it contributes to detecting and 
characterizing 90 percent of near-Earth asteroids 140 meters in 
diameter or less, and how it advances our capability of sending humans 
to destinations such as Mars, as set in policy in successive 
Authorization Acts. In these tight budgetary times, we need to be sure 
the proposed approach will be the most efficient means of achieving 
those objectives.
    So, I look forward, Administrator Bolden, to what I hope will be 
the beginning of an active dialogue on both the policy and the 
resources required to support NASA in effectively implementing its 
challenging and inspiring portfolio.

    Chairman Palazzo. Thank you, Ms. Edwards. I now recognize 
the Chairman of the Full Committee for a statement, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. America is a 
Nation of explorers, and space is the next frontier. Just last 
week, NASA announced the discovery of new worlds beyond our 
solar system that resemble our own planet.
    We in Congress need to be diligent in our review of the 
Administration's proposed budget for NASA to ensure that this 
agency remains focused on its primary mission, space 
exploration.
    In April 2010, almost three years ago, President Obama 
addressed the NASA workforce at the Kennedy Space Center. He 
stated that the next mission for American astronauts beyond the 
International Space Station was an asteroid and canceled NASA's 
many years of work to return to the surface of the Moon.
    Last December, a National Academy of Sciences review of 
NASA's strategic direction made the following observation. 
``The Committee has seen little evidence that a current stated 
goal for NASA's human spaceflight program, namely to visit an 
asteroid by 2025, has been widely accepted as a compelling 
destination by NASA's own workforce, by the Nation as a whole 
or by the international community. On the international front 
there appears to be continued enthusiasm for a mission to the 
Moon but not for an asteroid mission.''
    Not having found a suitable asteroid for NASA astronauts, 
the President's budget now proposes a robotic Asteroid 
Retrieval Mission to bring one closer to the Moon. NASA's 
budget does not identify where the funding for such an Asteroid 
Retrieval Mission will come from, but it is likely to detract 
from NASA's human spaceflight projects, the International Space 
Station, Orion Crew Vehicle, and Space Launch System.
    Further, the President's budget requests over $1.8 billion 
for NASA's Earth Science programs.
    How does this high level of spending affect other NASA 
priorities, especially planetary exploration?
    Here are the priorities for NASA's exploration missions 
that have been consistent in Congressional authorizations for 
the past eight years. We need to make the International Space 
Station both an international and scientific success that will 
enable further exploration beyond Earth orbit. We need to build 
new systems to once again launch American astronauts on 
American rockets as soon as possible. Today, the United States 
pays Russia $63 million to take each of our astronauts to the 
station.
    While we support certain investments by NASA to fund 
private sector cargo and crew initiatives to support the 
station, Congress has been clear over the years that the Orion 
Crew Vehicle serve as a backup option.
    And finally, after receiving testimony from many engineers 
and astronauts, Congress has been insistent that in order to 
venture beyond low-Earth orbit, a heavy-lift launch vehicle, 
NASA's Space Launch System, needs to be developed.
    The goal of NASA's human spaceflight program is to go to 
Mars and beyond on a path that includes returning to the Moon 
or asteroids as necessary. This stepping-stone approach for our 
exploration out of low-Earth orbit is clear and unambiguous.
    While Federal budgets will continue to be uncertain, 
congressional support for NASA's exploration mission is clear 
and unwavering.
    Thank you Mr. Chairman, I will yield back.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Lamar Smith

    America is a nation of explorers, and space is the next frontier. 
Just last week, NASA announced the discovery of new worlds beyond our 
solar system that resemble our own planet.
    We in Congress need to be diligent in our review of the 
Administration's proposed budget for NASA to ensure that this agency 
remains focused on its primary mission-space exploration.
    In April 2010-almost three years ago-President Obama addressed the 
NASA workforce at the Kennedy Space Center. He stated that the next 
mission for American astronauts beyond the International Space Station 
was an asteroid, and canceled NASA's many years of work to return to 
the surface of the Moon.
    Last December, a National Academy of Sciences review of NASA's 
strategic direction made the following observation:

      ``The Committee has seen little evidence that a current stated 
goal for NASA's human spaceflight program-namely, to visit an asteroid 
by 2025-has been widely accepted as a compelling destination by NASA's 
own workforce, by the nation as a whole, or by the international 
community. On the international front there appears to be continued 
enthusiasm for a mission to the Moon but not for an asteroid mission.''

    Not having found a suitable asteroid for NASA astronauts, the 
President's budget now proposes a robotic asteroid retrieval mission to 
bring one closer to the Moon. NASA's budget does not identify where the 
funding for such an asteroid retrieval mission will come from. But it 
is likely to detract from NASA's human spaceflight projects, the 
International Space Station, Orion Crew Vehicle and Space Launch 
System.
    Further, the President's budget requests over $1.8 billion for 
NASA's Earth Science programs.

    How does this high level of spending affect other NASA priorities, 
especially planetary exploration?

    Here are the priorities for NASA's exploration missions that have 
been consistent in Congressional authorizations for the past eight 
years:

    <bullet>  We need to make the International Space Station both an 
international and scientific success that will enable further 
exploration beyond Earth orbit.
    <bullet>  We need to build new systems to once again launch 
American astronauts on American rockets as soon as possible. Today, the 
U.S. pays Russia $63 million to take each of our astronauts to the 
Station.
    <bullet>  While we support certain investments by NASA to fund 
private sector cargo and crew initiatives to support the Station, 
Congress has been clear over the years that the Orion Crew Vehicle 
serve as a backup option.
    <bullet>  And finally, after receiving testimony from many 
engineers and astronauts, Congress has been insistent that in order to 
venture beyond Low-Earth orbit, a heavy-lift launch vehicle-NASA's 
Space Launch System-needs to be developed.

    By contrast, I am disheartened by the Administration's ever-
changing goals and their lack of justifications and details.
    The goal of NASA's human spaceflight program is to go to Mars and 
beyond on a path that includes returning to the moon or asteroids as 
necessary. This stepping-stone approach for our exploration out of low-
earth orbit is clear and unambiguous.
    While federal budgets will continue to be uncertain, Congressional 
support for NASA's exploration mission is clear and unwavering.
    Thank you Mr. Chairman, I yield back the remainder of my time.

    Chairman Palazzo. Thank you, Mr. Chairman. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Ms. Johnson appears in appendix 
II]
    Chairman Palazzo. At this time I would like to introduce 
today's witness, The Honorable Charles F. Bolden, Jr., the 
Administrator of the National Aeronautics and Space 
Administration. I now recognize Administrator Bolden to present 
his testimony.

       TESTIMONY OF THE HONORABLE CHARLES F. BOLDEN, JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    General Bolden. Thank you very much, Mr. Chairman and 
Members of the Committee. Let me thank you for the opportunity 
to appear today to discuss NASA's Fiscal Year 2014 budget 
request.
    Let me start by thanking the Full Committee as well as this 
Subcommittee for your continued bipartisan support of NASA and 
the world's second-to-none civil space program. That support is 
also reflected among the American people and the White House as 
evidence by the President's $17.7 billion funding request for 
NASA. The budget reflects today's fiscal realities, and it 
aligns NASA's full spectrum of activities to meet the 
President's challenge to send humans to an asteroid by 2025 and 
to Mars in the 2030s.
    As part of the agency's overall asteroid strategy, NASA is 
planning a first-ever mission to identify, capture, and 
redirect an asteroid into orbit around the Moon. This mission 
represents an unprecedented technological challenge raising the 
bar for human exploration and discovery while helping protect 
our home planet and keep bringing us closer to a human mission 
to Mars in the 2030s.
    This budget also supports NASA's partnerships with American 
industry partners who are developing new ways to reach space. 
These partnerships are creating jobs and enabling NASA to focus 
on new technologies that benefit all of our missions. An 
industry partner, Space-X, has begun resupplying the 
International Space Station with cargo launched from the United 
States, and Sunday's successful test launch of Orbital 
Science's Antares marks another significant milestone in NASA's 
plan to rely on American companies to launch supplies and 
astronauts to the International Space Station.
    Orbital is now poised for its first demonstration launch 
and mission to the ISS later this year. The Administration is 
committed to launching American astronauts from U.S. soil 
within the next four years, and this budget provides the 
necessary resources to achieve this goal. This budget fully 
funds the International Space Station that remains the 
springboard to our next great leap in exploration. It also 
continues investments that are developing the SLS rocket and 
Orion Crew Vehicle that will take astronauts to deep space and 
it supports driving the development of space technologies such 
as solar electric propulsion that will power tomorrow's 
missions and help improve life here on Earth.
    This budget continues to build on our Nation's record of 
breathtaking scientific discoveries and achievements in space 
with science missions that will reach further into our solar 
system and provide critical knowledge about our home planet.
    Among other science goals, the budget will sustain NASA's 
vital role in helping us understand Earth system and climate 
and the dynamics between our planet and our sun. These efforts 
will provide critical knowledge about our home planet and 
potential threats.
    We will continue our steady progress toward our next great 
observatory as we develop the James Webb Space Telescope 
scheduled to launch in 2018. NASA's program of innovative 
aeronautics research is pursuing an ambitious research agenda 
for substantially reducing aircraft fuel consumption, emissions 
and noise. With the 2014 request, NASA begins a new $25 
million-a-year advanced composites project that will focus on 
innovative composite materials and structures.
    Mr. Chairman, we have had to make some pretty tough choices 
with this budget, but I am committed to making sure NASA is 
using its resources strategically for a cohesive exploration 
program that bolsters our economy, improves life on Earth and 
raises the bar of what humans can achieve.
    I look forward to your questions.
    [The prepared statement of General Bolden follows:]
    [GRAPHIC] [TIFF OMITTED] 80562.016
    
    [GRAPHIC] [TIFF OMITTED] 80562.017
    
    [GRAPHIC] [TIFF OMITTED] 80562.018
    
    [GRAPHIC] [TIFF OMITTED] 80562.019
    
    [GRAPHIC] [TIFF OMITTED] 80562.020
    
    [GRAPHIC] [TIFF OMITTED] 80562.021
    
    [GRAPHIC] [TIFF OMITTED] 80562.022
    
    [GRAPHIC] [TIFF OMITTED] 80562.023
    
    [GRAPHIC] [TIFF OMITTED] 80562.024
    
    [GRAPHIC] [TIFF OMITTED] 80562.025
    

    Chairman Palazzo. I want to thank again the witness for 
being available for questioning today. I also want to remind 
Members that Committee rules limit questioning to five minutes. 
The Chair will at this point open the round of questions.
    Administrator Bolden, under current topline funding levels, 
what is the cost schedule confidence level for SLS being 
operational by 2017?
    General Bolden. Sir, if you are asking about the joint 
confidence level number, I don't think we have finished 
developing that yet, but I will get to it for certain. But I 
will say that I know it will be a number with which I will be 
very comfortable for a number of reasons. Unlike other brand 
new programs, SLS is an evolving system in which we are using 
previously proven hardware, if you will. The shuttle main 
engines are the main propulsion system for SLS in the 
beginning. We are using, granted, a five-segment solid-rocket 
motor as the initial boosters for the system, but it is still 
very well-proven technology. Orion has been through now two 
programs, Constellation and presently the Orion program itself. 
So we are at a level of maturity with those programs that we 
would not ordinarily be with another program. So I am very 
confident in our cost estimates.
    We have had an independent cost assessment done that has 
been available to this Committee and Congress for about a year 
or so now in which they assess that our estimates were well-
founded, that the process for determining what we thought the 
cost would be was grounded in good budgeting and cost planning. 
They cautioned us that we probably could use more, but as I 
think I have told this Committee and others before, I don't 
remember a time that we couldn't use more to buy down risk on 
any of our projects.
    Chairman Palazzo. So you don't have a joint confidence 
level percentage right now?
    General Bolden. We don't have a joint confidence level 
percentage right now because we have not reached what we call 
the key decision point C which is the point at which we 
determine whether we are going to go forward with a program.
    If that number came out to be really bad, which I don't 
anticipate, it might dictate that a program be cancelled. But I 
don't anticipate that at all.
    Chairman Palazzo. When can this Committee expect one?
    General Bolden. Mr. Chairman, I will get back to you. I 
think the KDPC is sometime this summer, but I will get back. I 
will get that for the Committee.
    Chairman Palazzo. Well, if there is not an official joint 
confidence level, what would General Bolden say would be as a 
percentage?
    General Bolden. Oh, yeah, that is what I said. My guess is 
that----
    Chairman Palazzo. A percentage.
    General Bolden. --that my guess, and I shouldn't do this--
no, let me not.
    Chairman Palazzo. Okay.
    General Bolden. I shouldn't and I won't.
    Chairman Palazzo. Well, I just want to remind you, I mean, 
the SLS is one of NASA's top priorities, and we in this 
Committee look forward to seeing a joint level, confidence 
level as soon as possible.
    General Bolden. Sure.
    Chairman Palazzo. The Administration's budget request for 
the Space Launch System includes a reduction of $60 million. 
How was this reduction calculated?
    General Bolden. Mr. Chairman, let me make sure I 
understood. Were you saying that the budget shows a $60 million 
decrease----
    Chairman Palazzo. Decrease, correct.
    General Bolden. --in SLS, in the vehicle itself?
    Chairman Palazzo. Yes, sir.
    General Bolden. From the beginning, we used to give you one 
line for SLS, and every time we came back with a budget, there 
was always a lot of confusion and okay, that is less money than 
we told you to spend on SLS. So we now have started breaking 
out the system into the vehicle itself which is SLS, 
Exploration Ground Systems, which is included in 21st Century 
Launch Complex at the Kennedy Space Center, its construction of 
facility upgrades at Stennis, and we try to break those out 
individually now. So while there may be what seems to be a 
reduction in funding deliberately applied to the vehicle, I 
think our budget numbers have been relatively consistent from 
what the Human Exploration and Operations Mission Directorate 
has said we needed for the program from the very beginning.
    Chairman Palazzo. Can you identify the parts of the program 
that we are either eliminating or reducing?
    General Bolden. We are not eliminating anything. To my 
knowledge, we are not reducing anything in the program, but 
what we are trying to do is more definitively document the 
amount of money that is going toward the B-2 test stand 
upgrades at the Stennis Space Center. That was not spelled out 
in the budget before, and now when you look under what we call 
CECR, the construction of facilities account, you will see a 
specific reference to the B-2 test stand, you will see a 
specific reference in the write-ups to advanced boosters which 
we think is very critical, not to the 70-metric ton version of 
SLS, but we will need it when we move up to 150-metric ton 
version, and we can't wait until we need it in 2025 to start 
constructing it.
    So those are numbers that I count toward SLS but the 
Committee may not attribute to SLS.
    Chairman Palazzo. So just to clarify, with the reduced 
funding, you don't see any anticipated missed deadlines for 
SLS.
    General Bolden. I don't see, anticipate any missed 
deadlines, and I would remind the Committee, and I think, Mr. 
Chairman, you know probably better than anybody sitting in this 
room because you have seen more than I have at Stennis, we have 
been testing the J2-X consistently at Stennis very 
successfully. We have got 500 second tests several times now. 
We are running tests at ATK with the boosters. We have gotten 
Orion where it is ready. It is almost ready to fly in the fall 
of 2014. We could tick off the achievements in both SLS and 
Orion that meet our milestones, and we have not--with one 
exception that I know of which is delaying or putting off the 
abort, the Airborne abort test, for Orion, which we don't need 
for many years. We delayed that so that we could get some other 
things done.
    Chairman Palazzo. Okay. I now recognize Ms. Edwards for 
five minutes.
    Ms. Edwards. Thank you, Mr. Chairman. I have a statement 
that is submitted by the Planetary Society expressing concerns 
about the Fiscal Year 2014 budget that I would like to request 
be entered into the record.
    Chairman Palazzo. Without objection, so ordered.
    [The information appears in Appendix II]
    Ms. Edwards. Thank you, Mr. Chairman. General Bolden, I 
want to start by asking you about your budget because it seems 
that it assumes that the sequestration will end. And so I want 
to know what you believe would happen if sequestration 
continues to affect the NASA budget in 2014 and beyond, and 
what would be the likely impacts and have you thought about the 
planning for that in terms of new initiatives in Fiscal Year 
2014 such as the asteroid mission? Would that be eliminated? 
How would you translate your priorities for 2014 into funding 
decisions in the event that sequestration continues?
    General Bolden. Congresswoman, first of all, let me confirm 
your assumption about the budget itself. The 17.7 is based on 
the President's confidence that he will be able to work out an 
agreement with this Congress in the budget for Fiscal Year 2014 
that will negate the sequester. So that is a correct 
assumption.
    If this Congress and the Administration are unable to do 
what the American public expects and we have to deal with 
sequestration for a ten-year period of time, to be quite 
candid, all bets are off. And things that we talk about, what I 
do now, when I come to this Committee and say we are fully 
funding all of our priorities, I can't do that. It puts more 
than 20 pounds in a 5-pound sack, and we will not be able to do 
that. Examples would be some of the testing that is necessary 
for our Commercial Crew Program will have to slip. Several of 
you have referenced the amount of money that we consistently 
ask for for Commercial Crew Program and say why do we keep 
doing that. The reason we keep asking for at first $1 billion 
annually for the Commercial Crew Program, and then we decided, 
okay, maybe we can make it for $822 million. What I explained 
to the Committee four years ago was if we don't get back then 
it was a billion dollars, we won't be able to deliver 
Commercial Crew Program in 2014.
    Ms. Edwards. What about the asteroid mission? What happens 
to that?
    General Bolden. The asteroid mission will probably go away. 
Congresswoman we are in the stage of developing the asteroid 
mission. The President requested, $105 million for a strategy. 
Everyone needs to understand, that is not the mission. It is an 
asteroid strategy that includes $78 million for the development 
of the mission itself in the Human Exploration and Operations 
Mission Directorate.
    Ms. Edwards. So General Bolden, let me ask you about that 
because in the National Academy's 2012 report on NASA's 
strategic direction found that there is actually little support 
for an asteroid mission in the science community. What is your 
overall objective and your testimony as you have just described 
refers to an overall asteroid strategy. Can you describe that 
strategy and if you don't have it here, can you give it to us 
for the record?
    General Bolden. I can describe it because it is relatively 
simple, and I would have to refer back to the April 18 hearing. 
I think it was April 18 when we met on asteroids. Dr. John 
Holdren, General Shelton, and me and I think it was--I can't 
remember whether it was Congressman Brooks or Congressman Posey 
to whom I responded after much of their frustration that the 
only thing we could do today was pray. The asteroid strategy 
gives us the capability of being able to increase the number of 
asteroids that we identify that threaten Earth, to characterize 
them such that we can determine how we reach them. We are 
developing a process or a technology that will come forward in 
the Asteroid Retrieval Mission that will demonstrate that 
humans can, in fact, alter the path of an asteroid that is 
headed toward Earth.
    So these are very important parts of the asteroid strategy. 
It is--
    Ms. Edwards. Let me just interrupt you for a minute.
    General Bolden. Yes.
    Ms. Edwards. I apologize. But are you saying to us then 
that the goal is an asteroid and a capture and retrieval of an 
asteroid? Or is the goal an interim step to Mars?
    General Bolden. The goal of our program is to remain the 
world's leader in space exploration to meet the President's 
goal for us, or challenge for us, of putting humans in Martian 
orbit in the 2030s. That is the ultimate destination for 
humans, and we must not lose track of that.
    An asteroid is an intermediate destination on the way to 
our ultimate destination of Mars. An asteroid mission must 
stand by itself, however. So as a part of the strategy, the 
asteroid mission answers several other questions that have been 
asked of us or challenges that have been given us. Putting a 
human with an asteroid. That is one that the President 
expressed to us. This Committee and others in this Congress and 
the National Space Policy demands that we be able to identify, 
as you said, 100 percent of the asteroids that are 40 meters or 
less, and this is one of the ways that we intend to move toward 
answering those questions for the Nation.
    Ms. Edwards. Thank you, Mr. Chairman. I hope we will be 
able to get to follow-up with this. Thanks.
    Chairman Palazzo. Thank you, Ms. Edwards. We are going to 
try to get through as many Members as possible, but then we are 
going to recess for votes. But we are also going to return, so 
I now recognize Mr. Smith for five minutes.
    Chairman Smith. Thank you, Mr. Chairman. It sounds like a 
number of us have the same type of questions, and Mr. Bolden, 
you should not take these personally if we ask tough questions 
because I think we all admire you as an administrator and 
appreciate the job you are doing.
    Let me go to the Asteroid Retrieval Mission and follow up 
on that. NASA's Small Bodies Advisory Group reported, ``While 
the participants found it to be very interesting and 
entertaining, it was not considered to be a serious proposal.'' 
Why would the Administration dismiss the advice of those whose 
advice they sought?
    General Bolden. I am not aware of that advice, to be quite 
honest. That is the first--I just haven't seen that, sir.
    Chairman Smith. Really? That Small Bodies Advisory Group--
--
    General Bolden. I know what the Small Bodies Advisory Group 
is. I am saying I am not aware that they offered that. I have 
in my possession the letter from the Planetary--everybody 
generally cc's me on everything that comes to Congress so I 
won't be surprised.
    Chairman Smith. That was----
    General Bolden. I am surprised by this.
    Chairman Smith. That was a direct quote. I will get it to 
you----
    General Bolden. Yes, sir.
    Chairman Smith. --soon then. The other question, this 
follows up a little bit as well. Everything I have seen makes 
me believe that scientists and others who are experts think 
that a Moon landing rather than a rendezvous with an asteroid 
is a better precursor to a Mars mission. Would you agree with 
that or do you think the asteroid is better preparation?
    General Bolden. Congressman, I would agree with anyone who 
says that a Moon landing is good. We have done it. We have done 
it six times, and it was incredibly good.
    Chairman Smith. There is a lot more to do than what we have 
done so far.
    General Bolden. There is so much more to do than what we 
have done so far. But if I go back to the premise that the 
Chairman opened up with that we can only do so much.
    Chairman Smith. Which would be better for the Mars mission? 
Would it be back to the Moon or would it be the asteroid?
    General Bolden. I don't think that either would be better. 
They both are good. In our particular case since we are 
operating under a flat budget. The one that is executable in 
today's budget environment is an asteroid mission.
    Chairman Smith. If various experts said the Moon, would you 
heed their advice?
    General Bolden. We get expert advice all the time, and we 
try to heed. However, I think you know, Mr. Chairman, it is 
impossible to heed the advice of all experts. Some expert is 
going to feel that he or she is being disregarded. I have 
utmost respect for the National Research Council Committee that 
looked at us and said----
    Chairman Smith. Pretty soon----
    General Bolden. --that there was--asteroids.
    Chairman Smith. --on some subject you are going to have to 
take the expert's advice, whether it be from Small----
    General Bolden. We are taking the advice of experts with 
this.
    Chairman Smith. Whether it be from the Small Bodies 
Advisory Group or for others saying that the lunar mission 
would be better for the Mars mission.
    My next question is this. On the James Webb Space 
Telescope, which is one of our great scientific adventures, 
there is some concern about technical problems there. I think 
it is maybe overweight. I think there are two instruments that 
are running close to a year behind. Do you see us able to meet 
our deadlines and get the James Webb up in fall, I think, 2017 
as expected?
    General Bolden. Chairman Smith, I would----
    Chairman Smith. 2018.
    General Bolden. Again, I would have to ask for the source 
of the information. That is in direct contrast to what I get 
every week in terms of status of James Webb. We are 14 months 
ahead on the critical path toward flight.
    Chairman Smith. So you are not----
    General Bolden. So for someone to say that we are a year 
behind with two instruments. We have two instruments that we 
have been working quite a bit. The vendors have delivered 
NIRCam and NIRSpect, and if they think they are a year behind, 
I need to know it.
    Chairman Smith. Well 11 months behind is what I am told.
    General Bolden. If they think we are 11 months behind on 
those two instruments----
    Chairman Smith. I keep coming up with all these news 
breaks.
    General Bolden. Sir, that is a serious newsbreak because 
that would be contradictory to what the leadership of Northrup 
Grumman and NASA's James Webb Space Telescope program are 
telling the administrator.
    Chairman Smith. We will----
    General Bolden. That is not a----
    Chairman Smith. We will get you our----
    General Bolden. That is a serious absence of information to 
me if that is true.
    Chairman Smith. Okay. We will get you our source on that as 
well.
    General Bolden. Yes, sir. I would appreciate that because I 
promised this Congress that I was responsible for the James 
Webb Space Telescope. I think you may remember when I stood 
here and I said no one feels as bad about this as I do.
    Chairman Smith. The information that I just mentioned, the 
two instruments being 11 months delayed, was in a GAO report 
that came out last week.
    General Bolden. I would have to go back and check with my--
we have carried GAO by the hand through Goddard, through the 
Johnson Space Center and everywhere. So if GAO is reporting 
that we have instruments that are 11 months behind----
    Chairman Smith. This is GAO, April 2013, two of the 
instruments, 11 months behind.
    General Bolden. Mr. Chairman, I will get back to you.
    Chairman Smith. Okay.
    General Bolden. That is news to me.
    Chairman Smith. Okay. Thank you. Last quick question. I 
want to go back to what the Chairman mentioned about SLS 
beginning operations by 2017 as hoped. Do you think that is 
very guaranteed, very likely or probable?
    General Bolden. I think if this Congress and the 
Administration are able to solve the sequester problem, 2017 
inaugural flight on the integrated SLS on Orion is very good. 
Nothing is ever a certainty in this business. Barring no 
accidents, barring a successful flight of Orion next year, we 
are well on the way to a 2017 inaugural flight of SLS on Orion.
    Chairman Smith. Thank you, Mr. Bolden. Thank you, Mr. 
Chairman.
    Chairman Palazzo. Thank you, Mr. Smith. I now recognize Mr. 
Kennedy for five minutes.
    Mr. Kennedy. Thank you, Mr. Chairman. General, thank you 
very much for being here. I thank the Committee for calling the 
important hearing.
    General, just a couple of questions for you. I understand--
shifting gears a little bit from the asteroid mission to 
something that is near and dear to my district is the STEM 
education programs that you have at NASA, and I understand from 
the budget materials that there has been a reorganization and a 
consolidation of some of those priorities for the 
Administration, focusing on four priority areas and 
consolidating programs into three different agencies.
    So my question to you, sir, is, is there any thought on how 
this transition is going to--well, you can minimize the 
disruption to some of these programs that are extraordinarily 
popular and important to school children as young as 
kindergarteners. In my district, there is a number of education 
programs that have been extraordinarily successful. I was at 
one recently in Sharon. There was about 1,200 students learning 
about space and STEM training to be an astronaut. One of the 
high schools, the Tri-County High School in Franklin, was one 
of only eight highs schools in the country that were selected 
to participate in United with NASA to create a hardware program 
last year, a far more interesting science class than I ever 
took, building robots, trying to come up with ways for 
astronauts to scramble eggs in space which I am sure is 
probably something useful to you.
    So how can we ensure, General, that programs like these 
that are already highly successful and are inspiring an 
entirely new generation of engineers don't disappear?
    General Bolden. Congressman, in answering your question, I 
need to go back and tell you what I think is successful. When I 
became the NASA Administrator, I asked for metrics. I am not an 
engineer, but I play with a lot of them. And so I have learned 
to have an appreciation for metrics, to demonstrate that 
something is successful or valuable.
    When I asked what the metrics were on the effectiveness on 
our K-12 STEM education program, I got blank stares. I was told 
that we touch a million kids a year, and I said, okay, I got 
it. But what effect have we had on those 12 million kids? Did I 
take one who was not interested in science and have them, when 
they get to high school, take very difficult science and math 
courses and go to college and major in engineering? And the 
answer I got was we don't know. And I said, well, how do we 
know we are effective? I feel good because I go out and talk to 
school kids all the time. I feel great. But have I made a 
difference in their life? And the only way I have to know that 
is metrics.
    The President and I happen to share this belief. And so 
what we are trying to do with the consolidation of the STEM 
education programs across the 13 or so STEM-related agencies in 
the government--and I see Congresswoman Edwards is smiling 
because she and I have talked about this at length. I think she 
shares my passion for metrics and demonstrating we are 
effective in what we do. We are not able to demonstrate our 
effectiveness today. The President is tired of it, and so he 
has said we are going to try something new. When you try the 
same thing over and over and the same answer, it is not 
working. You ought to try something new.
    NASA is assuming a leadership role, if you will, in helping 
to craft this new consolidated STEM education program. And I 
would caution everyone. Nothing is changing right now. We have 
a long time remaining in this fiscal year, so the programs in 
existence continue to go. In NASA, programs like MUREP, EPSCoR, 
Space Grant, all of the critical programs that we uniquely do 
that reach underrepresented minorities, tribal, colleges and 
schools, those programs will remain, even in the consolidated 
program.
    I don't do very well in being able to measure the 
effectiveness of my fellowships and scholarships. I am told the 
National Science Foundation has a pretty good system. So we are 
going to work with them to help us identify the effectiveness 
of our fellowships and scholarships. I don't do well at all. I 
have no metrics for--well, I shouldn't say that. I don't do 
well with metrics for K-12. I am told the Department of 
Education has a pretty good idea of how to establish those 
metrics. That is what we are working on to roll out effective 
the 2014 budget.
    So I think the kids that we are taking care of today will 
be taken care of, and my hope is we will be able to show you 
that we have an effect, not just tell you that I feel good 
because I touched a million kids.
    Mr. Kennedy. Thank you.
    Chairman Palazzo. Okay. As we know, a vote has been called. 
The Committee will recess subject to the call of the chair 
which I would like to be about five minutes after the last vote 
in this series. Without objection, so ordered. The Committee 
stands in recess.
    [Recess.]
    Chairman Palazzo. The Committee will now come to order. I 
recognize Mr. Brooks for five minutes.
    Mr. Brooks. Thank you, Mr. Chairman. First I want to make a 
quick comment about your focus on asteroids. Personally I 
concur. I think that is a good direction to go. At the same 
time I would add some benefit from the approach that the White 
House and you are recommending. First, I think it recognizes 
the risk to our country and our world. While at any point in 
time it is a small risk, over the accumulation of time it is a 
significant risk. Second, I think it is another reason why we 
need the Space Launch System to have the capability of doing 
whatever needs to be done. So I see it as a hand-in-glove 
effort. And finally, along those same lines, the technology 
that is developed as the history of NASA has shown, it is not 
limited to just one thing. The technology that NASA develops is 
expansive and is useful in many different ways. Whatever 
technology we can develop by initiating efforts with respect to 
asteroids I believe are beneficial.
    Now to a question about the Space Launch System, as you can 
imagine. Thank you for coming before our Tennessee Valley 
Chambers of Commerce that were here on Monday. We had roughly 
180 people that came to The Hill, and I was very pleased to see 
that you were one of the speakers, and thank you for your 
remarks.
    Space Launch System continues to receive less than the 
authorized levels, yet NASA is supporting not one but three 
different Commercial Crew Programs, and if I am reading the 
President's proposed budget correctly, he is proposing a 64 
percent increase in funding for Commercial Crew above the 
authorization bill level of $500 million, roughly from $500 
million to $800 million, if the information I have is accurate.
    That being the case, why the big increase for Commercial 
Crew but not a similar increase for Space Launch System being 
requested?
    General Bolden. Mr. Chairman, not Mr. Chairman. I am sorry.
    Mr. Brooks. That is all right. If Mr. Palazzo doesn't mind, 
I don't mind.
    General Bolden. Congressman, let me talk precise, exact 
numbers. If we took what we are requesting in the increase for 
Commercial Crew, which is from $525 million to $822 million, so 
$300 million. If I added $300 million to the SLS program, you 
wouldn't know it.
    Mr. Brooks. Well, I was thinking more of the 64 percent 
figure.
    General Bolden. But that is my point, sir, is that it 
depends on the numbers you use, and if you choose to use 
percentages, then percentage of a number like $500 million may 
seem very big. It is not big at all. We are trying to get close 
to the level that the President asked for when he decided to 
fund the Commercial Crew Program, which had not been done by 
any previous administration to be quite candid.
    We have asked for, and I think Bill Gerstenmaier, the head 
of the Human Exploration Operations Mission Directorate, has 
stated over and over that this is the amount of money that we 
need to deliver SLS on the date and time that we said, 2017 for 
the inaugural mission, integrated with Orion, 2021 now for the 
asteroid mission perhaps. And I don't need more money than 
that.
    If you give me money to put against SLS, against the 
vehicle, it means I can't put some money that I would 
ordinarily put against Advanced Booster Program.
    Mr. Brooks. Given our funding limitations, do you have a 
concern that there may be some duplication of effort, 
particularly inasmuch as we are funding three different private 
sector contractors in the Commercial Crew environment? Do you 
suggest keeping it at three or reducing it to two or reducing 
it to one?
    General Bolden. Congressman, our acquisition strategy, 
which we spelled out pretty well several years ago and we had 
to modify because we didn't get the money requested, was that 
we would try to promote competition for as long as we could and 
that at some point, which will be this summer, this spring, we 
are going to issue a draft request for proposal. The vendors 
will have an opportunity to look at that, tell us what they 
think. We will issue a final request for proposal in the fall, 
and by next spring we hope to be able to announce who the 
Commercial Crew provider is going to be.
    My hope is that Congress will fully fund us to the $822 
million level, and that may allow me to carry one and a half. 
It will not allow us to carry three vendors. If we go down to 
one, if I am forced to go down to one provider at any time, 
there is no competition, and it is exactly as I am. It will be 
exactly as I am today with the Russians and--there is no 
competition. It went from----
    Mr. Brooks. I am running out of time, and if the Chairman 
would permit, I will follow up with one final question. 
Hopefully it will be a brief answer because it will be a brief 
question.
    The word commercial has always been puzzling to me because 
I am not very familiar with a commercial or private-sector 
market for Commercial Crew. Do you envision that Commercial 
Crew is in fact going to have as its primary if not sole 
customer the United States Government?
    General Bolden. I do not anticipate that. I believe 
industry when they say--when Boeing and Boeing's Board of 
Directors commit to a program as they have done with the 
Commercial Crew Program, they are betting on the----
    Mr. Brooks. Well, if you have any studies that suggest that 
there truly is a private market out there for ``Commercial 
Crew,'' if you could share it with me, I would very much 
appreciate it.
    General Bolden. I will make an effort to get some of the 
commercial companies to release what they provided to their 
Boards of Directors. I will try.
    Mr. Brooks. Thank you, sir.
    Chairman Palazzo. I now recognize Ms. Wilson for five 
minutes.
    Ms. Wilson. Thank you, Mr. Chair. Good afternoon.
    General Bolden. Good afternoon. How are you doing?
    Ms. Wilson. It is my understanding that Congressman Kennedy 
mentioned STEM, and I would just like to follow up because I am 
concerned about potential funding shortfalls with regard to 
STEM.
    As you know, training a STEM workforce is essential to our 
economic competitiveness, and NASA's education programs, both 
within its mission directorate such as science and aeronautics, 
are as well as within its Office of Education, have taken a 
significant hit in the Fiscal Year 2014 budget proposal. It is 
a decrease of about 46 percent from Fiscal Year 2012. Who made 
the decision on what education activities are proposed to be 
cut? Was the interagency Committee on STEM involved? And what 
was OMB's role?
    General Bolden. Congresswoman, I can't tell you what OMB's 
role was, but I can tell you what I did. I have been intimately 
involved in the decisions within NASA on STEM education because 
I think most people will tell you no one is as passionate about 
STEM education as am I.
    Our decision was, after we listened to the proposal that 
came from the President, that he wanted--as I said a little bit 
earlier, he wanted to find a way to make the programs 
effective, that we would be able to measure the effect of the 
STEM education programs. We decided that we would go along with 
that effort. We had already been part of the way down with 
CoSTEM that you mentioned. Their report I think is supposed to 
come out this summer, and we will integrate the work of CoSTEM, 
two years. worth, into the consolidation effort that is ongoing 
right now.
    So I can tell you what we did. We participated in the 
decisions. I think what they did was across the board. It was 
decided to take all educational outreach funds from the 
agencies, the STEM agencies, to consolidate them, rather than 
try to cherry pick, I think we took everything, except some 
special ones that I mentioned earlier that go to underserved 
minorities, like MURAP, EPSCoR and then Space Grant, which 
covers everybody.
    Ms. Wilson. Just a follow-up. What resources would the 
Smithsonian, Department of Education and the NSF have as a part 
of the 2014 budget request to support infrastructure, to work 
across government and to implement the proposed consolidation? 
How would that infrastructure compare to the proven structure 
that NASA has developed over time which is supported through 
competitive selection and peer review to implement----
    General Bolden. Yes.
    Ms. Wilson. --STEM education and outreach, especially 
within the Science Mission Directorate? How will you do that 
with a 46 percent cut?
    General Bolden. My agency is really good. We are the best 
place to work in government, and I don't mean that pejoratively 
or anything. What will happen with the consolidation is that 
what I can do every day, bringing downlink TV from aboard the 
International Space Station, taking it into a classroom, every 
one of the STEM-related agencies will now have access to NASA 
content. So that is one of the things we are giving. We will be 
allowing everybody else to have access to the content that we 
have.
    What it will give us, what we will gain, will be access to 
the Department of Education, to the National Science Foundation 
and even to the Smithsonian in some of their metrics and some 
of their methods for promoting and reaching people with STEM 
education. I think there is value on both sides. Everybody 
gives but everybody gets something if we do it right.
    Ms. Wilson. One follow-up. Who is going to oversee this? 
Who will oversee it? What segment of government?
    General Bolden. The program is actually going to----
    Ms. Wilson. Department of Education----
    General Bolden. The program is actually presently being 
overseen by the Executive Office of the President. The 
President is the one that all of us are responding to in this. 
I am overseeing with Leland Melvin as my emissary, if you will, 
what we are doing in NASA. And every other principal is quite 
well aware of what is going on and is taking part, and we have 
all had an opportunity to express our opinion about how things 
should be done. Examples would be one of the things we proposed 
was take the people from each agency, each STEM agency, who are 
good at what they do and put them in a pool so that when the 
Department of Education or the National Science Foundation or 
Smithsonian starts looking to build a cadre of people that are 
going to be the overseers if you will, that we take people who 
have experience with this. And I expressed the desire and a 
willingness to offer NASA people anytime anybody wants to take 
them so that we make sure the program is done correctly.
    Ms. Wilson. Thank you.
    Chairman Palazzo. I now recognize Mr. Stewart for five 
minutes.
    Mr. Stewart. Thank you, Mr. Chairman. General, good to see 
you again.
    General Bolden. Always good to see you.
    Mr. Stewart. It has been a pleasure being on this Committee 
and having a chance to get to know you a little bit.
    I would like to be big picture if we could for a while, and 
I certainly don't mean to beat a dead horse, and I don't think 
that we will. But help me if you could bring some clarity to I 
think some fundamental visions or goals of your organization, 
and that is with the Asteroid Retrieval Mission. What is the 
main objective or goal that you have there? And if I can maybe 
rephrase the question, help me understand why that was placed 
as a priority over other possibilities, say for example a 
manned Moon mission?
    General Bolden. Congressman Stewart, I would not say the 
asteroid mission replaces anything. We did not have a lunar 
mission in our portfolio. We had a $17.7 billion budget with a 
notional, you know, five-year out that would not accommodate a 
lunar mission. I think it is in the record that if we went back 
and tried to replicate the lunar program that was in place 
under constellation, I have asked and I am told that Altair, 
the lander, is in the $8- to $10- billion range. I don't have 
$8 to $10 billion to put into a lander for a lunar program.
    We already had solar electric propulsion underway in our 
Space Technology Mission Directorate. We have had that for 
years. We think we can accelerate it with the funds that are 
coming, $40 million of the funds that are coming out the 105. 
Human exploration has been working for no less than three years 
on an asteroid-type mission. So we are levering what we have 
been doing for years.
    As Congressman Brooks mentioned, SLS and MPCV were made for 
the human exploration part of an asteroid mission. It gives us 
an opportunity to demonstrate that vehicle and its capability, 
Orion's capability to go beyond the Moon to deep space long 
before we have to make an 8-month mission to Mars and hoping 
that our people will survive in that.
    Mr. Stewart. Well, and I think actually, General, you bring 
up my point, and this is actually my primary question. If your 
ultimate objective is to go to Mars and knowing that there are 
building blocks that are required to do that, technological 
building blocks along the way that you have to accomplish in 
order to do that, does a lunar mission or the asteroid 
retrieval, does either of those give you a more significant 
foundation to build on, if that is your objective?
    General Bolden. You asked the question a little bit 
differently than was asked earlier, and I thought about it. The 
Chairman told me to think about it again and come out and say 
forget about the asteroid mission. I am not ready to do that 
yet.
    There is a decided advantage in an asteroid retrieval 
mission on the road to Mars. Solar electric propulsion is 
something we have got to have for deep space exploration. 
People have heard us say we are looking for game-changing 
propulsion. Solar electric propulsion has been around for a 
while but not the way we want to use it. There are varieties--
you know, solar electric propulsion is a big name for a lot of 
different things you can do, hall thrusters, ion thrusters, 
VASIMR. That is one thing. Life support systems in the Orion 
module, I don't need to change the--I can take the existing 
system in the first Orion and go to the Moon. So there is no 
technological advantage here.
    If I want to push technology, I want to go to deep space. I 
want to go somewhere where it is really, really, really 
challenging, and if we don't get it right, we are going to lose 
people.
    Mr. Stewart. I appreciate that.
    General Bolden. And let me tell you----
    Mr. Stewart. Then if I could in the minute or so that I 
have left, you have given some great examples of technologies 
which are developed with this mission. Are there any 
technologies that we sacrifice or that we would develop with 
another lunar mission that would not be developed in----
    General Bolden. It is not a matter of sacrificing 
technologies. It is a matter of requiring no new technology. We 
must remember, this is the greatest Nation in the world in 
terms of exploration of the universe. We have been to the Moon 
six times. We know how to do that.
    Now, Dr. Gilruth, who most of you don't know, once said at 
the end of the Apollo program people will realize how difficult 
it was to go to the Moon when we try to return. So just because 
we went once doesn't mean it is going to be easy the next time.
    I don't need any new technology to go to the Moon. I need 
money to go to the Moon. It is expensive to go into a gravity 
well of the lunar surface. I need new technologies to go to an 
asteroid in deep space or in a stable orbit rendezvous point 
around the Moon. And we have already started investing in that 
technology, and the minimal amounts of money--somebody asked 
why are we putting more money into technology development? 
Because we need it to fill the gaps. We have a technological 
roadmap that was certified by the National Research Council.
    This is not an overnight thing. We didn't just think of 
this. You know, I have to correct Members of the Committee who 
have said several times it seems like we just thought this up. 
NASA has been working on this for decades. The President 
focused us like a laser when he stood up at the Kennedy Space 
Center. And people don't relate it, and I am not trying to 
relate it to John Kennedy, but there were people who thought 
the President lost his mind when he stood in Rice University 
campus and said within this decade we are sending humans to the 
Moon and bringing them safely back.
    Gene Kranz who is a role model of mine and a flight 
director from-- he is Mr. Failure-is-not-an-Option. He said he 
went home. He said he thought the President had lost his mind. 
He woke up the next morning and he said no, that is not the 
case. The President trusts us, and he thinks we can do this.
    To have the President of the United States go to Florida 
and say NASA is going to send somebody to an asteroid in 2025 
and to Mars in 2030, I couldn't be more proud.
    Mr. Stewart. And my time is up. Thank you, General. I 
appreciate it. Mr. Chairman?
    Chairman Palazzo. I now recognize Ms. Bonamici for five 
minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you, 
General Bolden, for returning and for your service to our 
Nation.
    In a previous hearing in this Committee I pointed out some 
of the work that NASA does that affects Oregon's first district 
in several important ways from education opportunities, through 
the Space Grant program, to whale monitoring activities through 
NASA's National Ocean Partnership. And I wanted to ask you 
about the weather and climate monitoring. The marine economy in 
Oregon is very important to the coastal areas, and they rely on 
the data provided by NOAA and NASA. And in this NASA budget, I 
see that the Joint Polar Satellite System two climate sensors 
are being transferred from NOAA to NASA. But there doesn't 
appear to be an accompanying increase in NASA's Earth Science 
budget. So I wanted to ask you if you could please elaborate on 
how NASA is going to carry out this new responsibility. What 
are the criteria for having NASA assume responsibility because 
we want to ensure that there are long-term measurements and 
observations that are sustained.
    General Bolden. Congresswoman, I will take it for the 
record to get the exact amount, but I think we did get a 
modicum of funding that came with the climate sensors. But I 
will take that for the record. But I will say just as we did 
with the DSCOVR mission and others, we asked. We actually came 
to the House Appropriations Committee and said look, we would 
like to take this on because we think this is very important. 
In the case of DSCOVR, we have instruments that have already 
been built. They are already installed on the satellite. It 
makes no sense to us to take them off and put NASA's simulators 
on. And Chairman Wu said, look. I don't want to do that, but 
give it your best shot. You know, send me a proposal, and tell 
me what you are going to do.
    And we demonstrated to him how doing it a different way we 
could bring it in at a much less cost than it had originally 
been proposed. And that is what we have become accustomed to 
doing.
    Somebody mentioned earlier the fact that many of our 
missions have come in on budget or under budget and on schedule 
recently, and it was attributed to an increase in budget. That 
is not the case. I attribute it to the incredible people I have 
who are working for NASA who now have had a change of culture, 
if you will. They understand that we are not going to get any 
more money. And so they are looking for innovative ways to do 
things. We knew we couldn't get enough money for a classic 
asteroid mission, you know. That would be great if we could put 
humans on a big rocket and send them to an asteroid between 
Mars and Jupiter. Our budget is not going to allow that. Never, 
ever. I doubt it, unless we really do something big and you all 
decide to be generous.
    So we had to innovate, and we came up with the concept that 
is now the hallmark of an asteroid retrieval mission. So that 
is the way we do things.
    Ms. Bonamici. Thank you. I had a great conversation with 
members of the American Institute of Aeronautics and 
Astronautics. They were in town to talk about research funding 
which is of course very important. We talked about the 
biological and physical science research that is done at the 
Space Station. As you know, there has been a lot of research in 
space that affects medical care here, and I wondered, because 
of the potential for key medical advancements, is it surprising 
that what seems like a relatively small amount of the funding 
for ISS goes to research functions. So will you elaborate on 
that a bit?
    General Bolden. I think we have priced it about right, the 
amount of money that we put in our human research program, and 
I think what you are looking at is HRP that is dedicated to 
astronaut health and safety. What is not seen in that number is 
the amount of money that goes into human research. For example, 
the National Institutes of Health has a grant program in the 
millions of dollars, and the grantees do work on the 
International Space Station. One stipulation, can't have 
anything to do with astronauts. It has got to impact life here 
on Earth. Now, if it happens to help astronauts, great. But we 
don't count that kind of money that is being spent. CASIS, 
which is now the non-governmental organization that is 
responsible for going out and recruiting, selecting and then 
overseeing science experiments flown in the American segment of 
the International Space Station. Our utilization of the Space 
Station is up. The number of experiments that astronauts are 
able to do now that construction is over is up. It is a dynamic 
laboratory, better than anything everybody has ever seen 
before.
    Ms. Bonamici. Terrific. I will see if I can get one more 
question in. I understand that there is some work being done to 
develop a prototype exploration suit for use on board the ISS, 
and I wondered, is that a repurposing of the current, I guess 
it is the EMU that is used----
    General Bolden. EMU?
    Ms. Bonamici. --or is it going to be replaced and will 
there be a competitive process for that?
    General Bolden. My understanding is it will replace the 
EMU. It is a suit that is made to operate in a less than 1G 
environment of Mars. Looks like Buzz Lightyear, the one I have 
seen. You know, it is much less cumbersome, much less hard on 
the shoulder joints, for example, where we actually have had 
injuries with astronauts in the current EMU. So it is a new 
development.
    Ms. Bonamici. Did you have a competitive process for that?
    General Bolden. It was chosen, it will be chosen, through a 
competitive process, yes.
    Ms. Bonamici. Thank you. Thank you very much. My time is 
expired. Thank you, Mr. Chairman.
    General Bolden. I am sorry.
    Ms. Bonamici. Thank you.
    Chairman Palazzo. I now recognize Mr. Posey for five 
minutes.
    Mr. Posey. Thank you, Mr. Chairman, and I thank the general 
for joining us again. I have said it before and I will say it 
again, of all the agency heads that I have had the privilege to 
sit in, you have been the one that has been the most 
forthcoming and straight talking, and I appreciate that. Thank 
you.
    I don't want to get redundant. I just want to get these 
things in a proper perspective, just kind of for my memory bank 
here. The Keck study suggested that an asteroid mission would 
cost $2.6 billion, and I understand NASA disagrees with that 
number. And I was just wondering how much NASA thinks it will 
cost to retrieve and return an asteroid or move it, whatever 
the goal ends up being?
    General Bolden. Congressman Posey, I will correct you and 
say we don't disagree with the Keck number. However, our 
mission, as we envision it, is different from what the Keck 
number on which it was based. Keck, very respected group of 
scientists who studied this, they did not have an SLS or an 
MPCV. They did not have a head start on solar electric 
propulsion. They assume that we were going to use a big rocket 
and go between, I think, between Mars and Jupiter into the 
asteroid belt to put humans with an asteroid. And so I think 
that is where the $2.6 billion came from. I have been cautioned 
by many, and so I will take their advice and not try to give 
you a number right now. We are going into mission formulation 
this summer. After we talk with our international partners, 
with academia, with amateurs to be quite honest, to find out 
what this mission should have in it, and then we will come back 
with a more definitive number on what we think it is going to 
cost. But my guess would be for a similar mission that Keck 
had, it will be something less than their estimate.
    Mr. Posey. Well, that is something because certainly when 
you talk to people about appropriations, they want to know what 
is at the end of the line. You know, if it costs this much to 
go to an asteroid or twice as much as going to the Moon, I 
mean, that makes sense and you can understand that.
    How would you compare the cost of the Administration's 
lasso mission with a return to the Moon?
    General Bolden. If I can use the example of the Keck study, 
and I am not adopting that but it is an example. An example is 
Keck said $2.6 billion to carry out their type of asteroid 
mission which we think is more expensive than ours. The numbers 
quoted to me for Altair, for the lander, for a human lunar 
exhibition or landing, $8 to $10 billion.
    So going back to the Moon, if we use the numbers quoted for 
Altair which came from NASA in the Constellation program, and 
we use, we accept the numbers from Keck, then going to the Moon 
is almost a factor of three more expensive. And our budget 
won't sustain that, won't accommodate that.
    Mr. Posey. Yeah, and I heard that number when Congressman 
Stewart and you were having dialogue. Now, what is that number 
based on?
    General Bolden. The Keck number or the Altair number?
    Mr. Posey. The return to the Moon number.
    General Bolden. Return to the Moon? It is the number that I 
have been--I wasn't around, so I can't tell you. But I was 
quoted $8 to $10 billion for the lunar lander that was planned 
for the Constellation program. And one of the reasons that it 
never materialized was because NASA at the time did not have 
the funding.
    Mr. Posey. Yeah. Can you get us a copy of that, just that 
document just so we will have it?
    General Bolden. We can do that.
    Mr. Posey. Because I hadn't seen it before.
    General Bolden. We will do it.
    Mr. Posey. You know, could the hardware obviously that is 
being developed such as the SLS be used for both missions? I 
mean, wouldn't we use the same rocket to go to the asteroid 
that we would to the Moon?
    General Bolden. If we are going anywhere in deep space, and 
I will stipulate that we can call the Moon deep space, but we 
don't consider the Moon deep space anymore. But you could use 
SLS to go to the Moon. You will use SLS to go to an asteroid, 
to Mars and the like.
    Mr. Posey. Okay. The next thing of course I was going to 
ask if there is anything salvageable from the $9 billion 
Constellation mission to nowhere.
    General Bolden. We are using Orion quite effectively. We 
have gotten its cost down, its weight down and it is on 
schedule to fly in 2014.
    Mr. Posey. Okay. Because I think that might offset some 
costs if we got some stuff in the ground or----
    General Bolden. And to be fair, we flew Ares 1-X which was 
a part of the Constellation program. That was the last thing we 
did in the Constellation program. Ares 1-X was the most heavily 
instrumented rocket to ever go in space, and the data that we 
collected from Ares 1-X is now available to every rocket 
manufacturer in the country plus any rocket manufacturer that 
is cleared to receive ITAR related data I think.
    Mr. Posey. When Kennedy set the goal of going to the Moon 
within a decade, he literally inspired a Nation. You might have 
known a skeptic, but you know, as a teenager, it inspired me 
and my entire generation. When we heard the idea of going to an 
asteroid and maybe doing two space walks on asteroids, all I 
heard was crickets. So you know, what do you think the 
difference----
    General Bolden. What is the difference?
    Mr. Posey. Yeah.
    General Bolden. We are not at war. I was not marching in 
the streets of Columbia, South Carolina, as we were when 
President Kennedy announced we were going to the Moon. We were 
in the midst of the Civil Rights Era. You know, there was 
hatred being spewed all over the streets of the United States. 
We were at war in another country, and we were racing the 
Russians, the Soviets back then. We are not racing the Soviets. 
We have no--hopefully we will not have an enemy like we had 
then. Hopefully we will not go back into the streets in racial 
discord again, although I can't guarantee that sometimes. And 
definitely, you know, this Nation will be very cautious before 
it enters into another war like Vietnam or some others that 
people could cite. Significant difference in time and 
conditions.
    Mr. Posey. Thank you. I see my time has expired. Thank you.
    Chairman Palazzo. I now recognize Ms. Brownley for five 
minutes.
    Ms. Brownley. Thank you, Mr. Chair, and thank you, General 
Bolden, for your courageous service to our country. I really do 
appreciate it very much.
    I have some questions about the budget request for 
construction and environmental compliance and restoration, 
specifically I am very interested in the budget request for 
cleanup of the Santa Susana Field Lab. This has been affecting 
my district for decades. NASA's original Fiscal Year 2013 
request included $5.5 million for the Santa Susana Field 
Laboratory cleanup, and I understand that the Administration 
has not yet released its Fiscal Year 2013 spending plan and 
that the appropriations law enacted March 26 gives NASA 45 days 
to do so.
    So a couple of questions here. Will NASA allocate the $15.5 
million request in 2013 to the Santa Susana Field Lab cleanup 
and what activities does NASA intend to complete with those 
funds? And then further, will NASA's 2014 request of $20.6 
million for the cleanup keep the project on schedule for 
completion by 2017? And what activities does NASA expect to 
complete with the 2014 year funds? And if Congress does not 
provide NASA with the full amount requested for 2014, how would 
the impact of NASA's ability to stay on track for cleanup 
completion in 2013?
    General Bolden. Congresswoman, you know, I am as dedicated 
as anyone to making sure that this planet is as good as it can 
be and that life here is good. As far as I know, and I will get 
back to you for the record, we have not made any proposal for a 
change in the funding dedicated to Santa Susana. The last time 
I talked to the folk in the office responsible for that we were 
on target for completion of the cleanup by 2017, and that is 
what we intend to do.
    Ms. Brownley. Thank you very much.
    General Bolden. Yes.
    Ms. Brownley. I would love it if at any time you were 
available to come visit the site and see it for yourself.
    General Bolden. I would be glad to come.
    Ms. Brownley. Thank you.
    Chairman Palazzo. I want to thank the Administrator for his 
valuable testimony and the Members for their questions. The 
Members of the Committee may have additional questions. It has 
already been expressed to me that they will, so we will ask you 
to respond to those in writing. The record will remain open for 
two weeks for additional comments and written questions from 
Members. The witness is excused, and this hearing is adjourned. 
Thank you.
    [Whereupon, at 3:52 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Hon. Charles F. Bolden
[GRAPHIC] [TIFF OMITTED] 80562.026

[GRAPHIC] [TIFF OMITTED] 80562.027

[GRAPHIC] [TIFF OMITTED] 80562.028

[GRAPHIC] [TIFF OMITTED] 80562.029

[GRAPHIC] [TIFF OMITTED] 80562.030

[GRAPHIC] [TIFF OMITTED] 80562.031

[GRAPHIC] [TIFF OMITTED] 80562.032

[GRAPHIC] [TIFF OMITTED] 80562.033

[GRAPHIC] [TIFF OMITTED] 80562.034

[GRAPHIC] [TIFF OMITTED] 80562.035

[GRAPHIC] [TIFF OMITTED] 80562.036

[GRAPHIC] [TIFF OMITTED] 80562.037

[GRAPHIC] [TIFF OMITTED] 80562.038

[GRAPHIC] [TIFF OMITTED] 80562.039

[GRAPHIC] [TIFF OMITTED] 80562.040

[GRAPHIC] [TIFF OMITTED] 80562.041

[GRAPHIC] [TIFF OMITTED] 80562.042

[GRAPHIC] [TIFF OMITTED] 80562.043

[GRAPHIC] [TIFF OMITTED] 80562.044

[GRAPHIC] [TIFF OMITTED] 80562.045

[GRAPHIC] [TIFF OMITTED] 80562.046

[GRAPHIC] [TIFF OMITTED] 80562.047

[GRAPHIC] [TIFF OMITTED] 80562.048

[GRAPHIC] [TIFF OMITTED] 80562.049

[GRAPHIC] [TIFF OMITTED] 80562.050

[GRAPHIC] [TIFF OMITTED] 80562.051

[GRAPHIC] [TIFF OMITTED] 80562.052

[GRAPHIC] [TIFF OMITTED] 80562.053

[GRAPHIC] [TIFF OMITTED] 80562.054

[GRAPHIC] [TIFF OMITTED] 80562.055

[GRAPHIC] [TIFF OMITTED] 80562.056

[GRAPHIC] [TIFF OMITTED] 80562.057

[GRAPHIC] [TIFF OMITTED] 80562.058

[GRAPHIC] [TIFF OMITTED] 80562.059

[GRAPHIC] [TIFF OMITTED] 80562.060

[GRAPHIC] [TIFF OMITTED] 80562.061

[GRAPHIC] [TIFF OMITTED] 80562.062

[GRAPHIC] [TIFF OMITTED] 80562.063

[GRAPHIC] [TIFF OMITTED] 80562.064

[GRAPHIC] [TIFF OMITTED] 80562.065

[GRAPHIC] [TIFF OMITTED] 80562.066

[GRAPHIC] [TIFF OMITTED] 80562.067

[GRAPHIC] [TIFF OMITTED] 80562.068

[GRAPHIC] [TIFF OMITTED] 80562.069

[GRAPHIC] [TIFF OMITTED] 80562.070

[GRAPHIC] [TIFF OMITTED] 80562.071

[GRAPHIC] [TIFF OMITTED] 80562.072

[GRAPHIC] [TIFF OMITTED] 80562.073

[GRAPHIC] [TIFF OMITTED] 80562.074

[GRAPHIC] [TIFF OMITTED] 80562.075

[GRAPHIC] [TIFF OMITTED] 80562.076

[GRAPHIC] [TIFF OMITTED] 80562.077

[GRAPHIC] [TIFF OMITTED] 80562.078

[GRAPHIC] [TIFF OMITTED] 80562.079

[GRAPHIC] [TIFF OMITTED] 80562.080

[GRAPHIC] [TIFF OMITTED] 80562.081

[GRAPHIC] [TIFF OMITTED] 80562.082

[GRAPHIC] [TIFF OMITTED] 80562.083

[GRAPHIC] [TIFF OMITTED] 80562.084

[GRAPHIC] [TIFF OMITTED] 80562.085

[GRAPHIC] [TIFF OMITTED] 80562.086

[GRAPHIC] [TIFF OMITTED] 80562.087

[GRAPHIC] [TIFF OMITTED] 80562.088

[GRAPHIC] [TIFF OMITTED] 80562.089

[GRAPHIC] [TIFF OMITTED] 80562.090

[GRAPHIC] [TIFF OMITTED] 80562.091

[GRAPHIC] [TIFF OMITTED] 80562.092

[GRAPHIC] [TIFF OMITTED] 80562.093

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

      Submitted statement by Representative Eddie Bernice Johnson
      Ranking Member, Committee on Science, Space, and Technology,
                     U.S. House of Representatives

    Good afternoon. I want to welcome NASA Administrator Bolden back to 
the Committee, and I look forward to his testimony regarding NASA's 
Fiscal Year 2014 budget request.
    As you know, last week, the full Science, Space, and Technology 
Committee heard from Dr. John Holdren, the President's Science Advisor 
and Director of the White House Office of Science and Technology 
Policy. He described the President's budget request for R&D as one that 
recognizes the ``profound importance of continued progress in science 
and technology even as we work to reduce budget deficits and hold the 
line on government spending.'' I could not agree more. A commitment to 
deficit reduction should not negate the need to invest in our future.
    And I consider NASA and its programs to be one of the most 
strategic of the investments we can make as a nation. Not only is NASA 
an engine of innovation for America, but it has an additional feature 
that sets it apart from much of the rest of the federal R&D 
enterprise--namely, its ability to inspire. That quality of inspiration 
not only sets NASA apart, but it has also helped to make NASA one of 
the most positive symbols of our nation, recognizable throughout the 
world.
    We need that inspiration, now more than ever, as we seek to 
encourage our young people to pursue careers in science and 
engineering. Because it is that inspiration that breathes life into 
STEM education initiatives and helps the STEM curricula motivate a 
diverse cross-section of our youth, including those who have 
traditionally been under-represented in the STEM fields. That is one of 
the reasons I told Dr. Holdren that I need to know more about the 
Administration's proposed reorganization of federal STEM programs 
before I can make an informed assessment of the proposed changes. 
NASA's STEM initiatives and educational outreach, particularly through 
its science missions, have long been able to excite our young people, 
and I don't want to lose that excitement.
    Ultimately, though, it is the challenging work that NASA undertakes 
that makes it such a crown jewel of our nation's R&D enterprise. Yet, 
as a recent report by the National Academies makes clear, ``NASA cannot 
execute a robust, balanced aeronautics and space program given the 
current budget constraints.'' That finding should not be a surprise to 
anyone who has been on this Committee for more than a few years. We--
successive Administrations and Congresses alike--have asked NASA to 
carry out many important tasks, but too often we have allowed short-
term fiscal pressures to overrule the strategic imperative to invest in 
NASA at levels that are commensurate with those tasks.
    I hope as we prepare to reauthorize NASA this year, that we see 
investing in NASA not as a discretionary luxury, but rather as what it 
is--a critical investment in the future well-being of this nation and a 
beacon of inspiration for the generation that will be coming along to 
create the jobs of the future, explore the unknown, and improve the 
quality of life back here on Earth.
               Submitted letter by the Planetary Society

[GRAPHIC] [TIFF OMITTED] 80562.094

[GRAPHIC] [TIFF OMITTED] 80562.095

[GRAPHIC] [TIFF OMITTED] 80562.096

[GRAPHIC] [TIFF OMITTED] 80562.097

                                 <all>

</pre></body></html>
